 

@OCKLE

2311 Douglas Street ;
Omaha, Nebraska 68102-1214 Le ga l B riefs
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850 No. 19-697
JAMES DWIGHT PAVATT,
Petitioner,
vs.
TOMMY SHARP, Interim Warden,
Oklahoma State Penitentiary,
Respondent.
AFFIDAVIT OF SERVICE

E-Mail Address:

contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 31st day of December, 2019, send
out from Omaha, NE 2 package(s) containing 3 copies of the BRIEF IN OPPOSITION TO PETITION FOR WRIT OF
CERTIORARI in the above entitled case. All parties required to be served have been served by Priority Mail. Packages were

plainly addressed to the following:

SEE ATTACHED

To be filed for:
MIKE HUNTER
Attorney General
of Oklahoma
JENNIFER L. CRABB
Asst. Attorney General
Counsel of Record
OKLAHOMA OFFICE OF
THE ATTORNEY GENERAL
313 NE Twenty-First St.
Oklahoma City, OK 73105
(405) 521-3921
jennifer.crabb@oag.ok.gov

Subscribed and sworn to before me this 3 Ist day of December, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

aoe, 2» EC Ellie Qundiaw-h, Chile

My Commission Expires Nov 24, 2020

Notary Public

 

39244
SERVICE LIST

PETER KARANJIA

Counsel of Record
MICHAEL GELLER
JEAN CAMILLE GABAT
DLA PIPER LLP (US)
500 Eighth Street, NW
Washington, D.C. 20004
Tel. (202) 799-4000
peter. karanjia@dlapiper.com

SARAH JERNIGAN MCGOVERN
PATTI PALMER GHEZZI

Assistant Federal Public Defenders
Office of the Federal Public Defender
Western District of Oklahoma
Capital Habeas Unit

215 Dean A. McGee, Suite 707
Oklahoma City, OK 73102

Tel. (405) 609-5975
Sarah_Jernigan@fd.org

Attorneys for Petitioner
